No. 19-309

d
IN THE

Supreme Court of the United States
GOVERNOR

OF

DELAWARE,

Petitioner,

—v.—

JAMES R. ADAMS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF OF AMICI CURIAE PROFESSORS
IN SUPPORT OF PETITIONER

RODNEY A. SMOLLA
Counsel of Record
4601 Concord Pike
Wilmington, Delaware 19803
(302) 477-2177
rasmolla@widener.edu
Attorney for Amici Curiae

i
TABLE OF CONTENTS
PAGE

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . .

iii

INTEREST OF AMICI . . . . . . . . . . . . . . . . . . . . .

1

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

REASONS FOR GRANTING THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

I. THE PETITION SHOULD BE GRANTED
TO CLARIFY THE ELROD-BRANTI
ANTI-PATRONAGE DOCTRINE . . . .
3
A. Elrod-Branti is an “On-Off” Test, Not
a “Least Restrictive Means”
Doctrine . . . . . . . . . . . . . . . . . . . . . . . . . .

3

B. Applying the Elrod-Branti Exemption
to Judicial Selection . . . . . . . . . . . . . .
7
C. Judges Make Policy in a Manner
Distinct from the Legislative
Branches, But it is Policy
Nonetheless for Purposes of the
Elrod-Branti Exemption . . . . . . . . . .
D. No Fidelity to Superiors is Required
Under the Elrod-Branti
Exemption . . . . . . . . . . . . . . . . . . . . . . . .

8

14

E. Once the Propriety of the Exemption
is Recognized, “Discrimination”
Against an Excluded Party Cannot
Violate the First Amendment . . . . .
16

ii
PAGE

F. Delaware Has Decided that the
Spoils Do Not Belong to the
Victor. . . . . . . . . . . . . . . . . . . . . . . . . . . . .

19

II. THE PETITION SHOULD BE GRANTED
TO ADDRESS THE SOVEREIGN
POWERS OF STATES OVER STATE
JUDICIAL SELECTION . . . . . . . . . . . . .
20
A. Judicial Selection Regimes Reside
at the Core of State
Sovereignty . . . . . . . . . . . . . . . . . . . . . . .

20

B. Delaware is Entitled to Act as a
Laboratory for Democratic
Experiment . . . . . . . . . . . . . . . . . . . . . . .

22

C. The Delaware Experiment Has
Been a Triumphant Success . . . . . .

23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

26

APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

27

iii
TABLE OF AUTHORITIES
PAGE(S)

Cases
Branti v. Finkel,
445 U.S. 507 (1980) . . . . . . . . . . . . . . . . . . . . . 3, 5, 6
Elrod v. Burns,
427 U.S. 347 (1976) . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
Gregory v. Ashcroft,
501 U.S. 452 (1991) . . . . . . . . . . . . . . . . 8, 9, 20, 22
Hagan v. Quinn,
867 F.3d 816 (7th Cir. 2017) . . . . . . . . . . . . . . . . . 9
Highland Farms Dairy v. Agnew,
300 U.S. 608 (1937) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Kiddy-Brown v. Blagojevich,
408 F.3d 346 (7th Cir. 2005) . . . . . . . . . . . . . . . . 10
Kurowski v. Krajewski,
848 F.2d 767 (7th Cir. 1988) . . . . . . . . 10, 11, 15
Laird v. Tatum,
409 U.S. 824 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . 13
Lane County v. Oregon,
7 Wall. 71, 19 L.Ed. 101 (1869) . . . . . . . . . . . . . 20
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) . . . . . . . . . . . . . . . . . 7
Nekolny v. Painter,
653 F.2d 1164 (7th Cir. 1981), cert. denied,
455 U.S. 1021 (1982) . . . . . . . . . . . . . . . . . . . . . . . . 10
New State Ice Co. v. Liebmann,
285 U.S. 262 (1932) . . . . . . . . . . . . . . . . . . . . . . . . . 22

iv
PAGE(S)

Newman v. Voinovich,
986 F.2d 159 (6th Cir. 1993) . . . . . . . . . . . . 11, 16
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) . . . . . . . . . . . . . . . . . . . . . . . 4
Republican Party of Minnesota v. White,
536 U.S. 765 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . 13
Rutan v. Republican Party of Illinois,
497 U.S. 62 (1990) . . . . . . . . . . . . . . . . . . . . . . . 4, 23
Sierra Club v. Morton,
405 U.S. 727 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Storer v. Brown,
415 U.S. 724 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . 23
Sugarman v. Dougall,
413 U.S. 634 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Texas v. White,
7 Wall. 700, 19 L.Ed. 227 (1869) . . . . . . . . . . . . 20
Trustees of Dartmouth College v. Woodward,
17 U.S. 518 (1819) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Williams-Yulee v. Florida Bar,
135 S. Ct. 1656 (2015) . . . . . . . . . . . . . . . . . . 14, 15
Wilson v. North Carolina,
169 U.S. 586 (1898) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Statutes
29 U.S.C. §§ 621–634, Age Discrimination in
Employment Act of 1967, 81 Stat. 602
(“ADEA”) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9

v
PAGE(S)

Other Authorities
Robert Barnes, Rebuking Trump’s criticism of
‘Obama judge,’ Chief Justice Roberts defends
judiciary as ‘independent’, The Washington
Post, November 21, 2018, at https://www.washingtonpost.com/politics/rebuking-trumpscriticism-of-obama-judge-chief-justice-robert
s-defends-judiciary-asindependent/2018/11/2
1/6383c7b2-edb7-11e8-96d4-0d23f2aaad09_s
tory.html?noredirect=on . . . . . . . . . . . . . . . . . . . . 15
Bernard S. Black, Is Corporate Law Trivial?: A
Political and Economic Analysis, 84 Nw.
U. L. Rev. 542 (1990) . . . . . . . . . . . . . . . . . . . . . . . 24
Benjamin N. Cardozo, The Nature of the
Judicial Process (1921) . . . . . . . . . . . . . . . . . . . . . 14
Lee Epstein & Jeffrey A. Segal, Advice and
Consent: The Politics of Judicial
Appointments 3 (2005) . . . . . . . . . . . . . . . . . . . . . . 18
Jill E. Fisch, The Peculiar Role of the
Delaware Courts in the Competition
for Corporate Charters, 68 U. Cin. L.
Rev. 1061 (2000) . . . . . . . . . . . . . . . . . . . . 11, 24, 25
Charles Fried, Federalism-Why Should We
Care?, 6 Harv. J.L. & Pub. Policy 1
(1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Lawrence Hamermesh, How We Make Law in
Delaware, and What to Expect from Us in
the Future, 2 J. Bus. & Tech. L. 409
(2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 25

vi
PAGE(S)

Lawrence A. Hamermesh, The Challenge to
Delaware’s Preeminence in Corporate Law
Federal Interference May Not Pose the
Greatest Danger to the State’s Future
Success, Del. Law., Fall 2009 . . . . . . . . . . . . . . . 23
Lawrence Hamermesh, The Policy Foundations
of Corporate Law, 106 Colum. L. Rev. 1749
(2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
https://www.americanheritage.com/it-smallcollege-yet-there-are-those-who-love-it . . . . . 26
Dawn E. Johnsen, Should Ideology Matter in
Selecting Federal Judges?: Ground Rules for
the Debate, 26 Cardozo L. Rev. 463
(2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Marcel Kahan and Edward Rock, Symbolic
Federalism and the Structure of Corporate
Law, 58 Vand. L. Rev. 1573 (2005) . . . . . . . . . . 25
Ehud Kamar, A Regulatory Competition Theory
of Indeterminacy in Corporate Law, 98
Colum. L. Rev. 1908 (1998) . . . . . . . . . . . . . . . . . 24
Michael McConnell, Federalism: Evaluating the
Founders’ Design, 54 U. Chi. L. Rev. 1484
(1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Deborah Jones Merritt, The Guarantee Clause
and State Autonomy: Federalism for a
Third Century, 88 Colum. L. Rev. 1
(1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 22
Jeffrey A. Segal et al., The Supreme Court in
the American Legal System, 33 (2005) . . . . . . 12

vii
PAGE(S)

Rodney Smolla, Let Us Now Praise Famous
Judges: Exploring the Roles of Judicial
“Intuition” and “Activism” in American Law,
40 U. Rich. L. Rev. 39 (2005) . . . . . . . . . . . . . . . . 7
Michel Stokes Paulsen, The Constitutional
Propriety of Ideological “Litmus Tests” for
Judicial Appointments, at https://pdfs.semanticscholar.org/8404/6430182d94a21180ff62
0f23c2fc285f58c3.pdf . . . . . . . . . . . . . . . . . . . . . . . 18
Brian Z. Tamanaha, The Several Meanings of
“Politics” in Judicial Politics Studies: Why
“Ideological Influence” Is Not “Partisanship”,
61 Emory L.J. 759 (2012) . . . . . . . . . . . . . . . . . . . 12
Alfred Lord Tennyson, The Charge of the Light
Brigade (1854) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Alexis de Tocqueville, 1 Democracy in America
280 (1945 ed.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Chamber Institute for Legal Reform 2019
Lawsuit Climate Survey: Ranking the States,
September 18, 2019, at https://www.institute
forlegalreform.com/pages/2019-executivesummary?utm_source=website&utm_medium
=carousel&utm_campaign=ilr_main_site&ut
m_term=https://www.instituteforlegalreform.com/pages/2019-executive-summary . . . . . . 24

viii
PAGE(S)

E. Norman Veasey, Professionalism and
Pragmatism—The Future: A Message from
the Chief Justice of Delaware, Del. Law.,
Winter 1993 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Constitutional Provisions
Delaware Constitution . . . . . . . . . . . . . . . . . . . . . 16, 26
The United States Constitution . . . . . . . . . . . . . . . . 19
Article IV, § 4, The Guarantee Clause . . . 2, 21
First Amendment . . . . . . . . . . . . . . . . . . . . . . passim
Tenth Amendment . . . . . . . . . . . . . . . . . . . . . . . 2, 21

1
INTEREST OF AMICI
Amici are professors who teach and write in the
fields of American constitutional law, corporate
law, and Delaware practice and procedure. Amici
have a professional interest in this Court’s
application of the principles bearing on the
constitutionality of Delaware’s judicial selection
process. The names, titles, and affiliations of the
individual amici are listed in the Appendix. This
brief is filed in their individual capacities, not as
representatives of the institutions with which
they are affiliated. 1
SUMMARY
The Petition should be granted to clarify the
Elrod-Branti anti-patronage doctrine. The Third
Circuit treated the Elrod-Branti doctrine as a
“least restrictive means” test, rather than an “onoff” test in which the only salient question is
whether members of the Delaware judiciary
qualify under the Elrod-Branti exemption.
Members of the Delaware judiciary should qualify
under that exemption. While judges do not make
“policy” in the same manner as members of the
executive and legislative branches, judges do
make policy within the meaning of the First
Amendment. The Third Circuit’s insistence that
the Elrod-Branti exemption is limited to jobs that

1

This amicus brief is filed with the consent of the
parties. No counsel for any party authored this brief in
whole or in part, and no monetary contribution intended to
fund the preparation or submission of this brief was made
by any party or any party’s counsel.

2
require loyalty or fidelity to the superior who
made the appointment merits this Court’s review.
The question is not whether, once in office,
judges are beholden to the political authority that
appointed them. The question is whether, in
considering their suitability for office, political
affiliation is a constitutionally permissible
consideration. The Delaware system necessarily
results in the exclusion of consideration by the
Delaware Governor of members of political parties
that do not make it into the top two “major”
political parties at any given moment. This
exclusion, however, cannot violate the First
Amendment if the Elrod-Branti exemption
applies, because by definition if party affiliation
is a permissible requirement for an appointment,
members of all other parties will always be
excluded. The Third Circuit’s decision turns the
entire ethos of Elrod-Branti on its head. Elrod and
Branti worked to break the headlock of the spoils
system on rank-and-file government employment.
The “Delaware Way” is animated by virtues
entirely aligned with Elrod and Branti. Delaware
has also sought to counteract the spoils system,
enacting for judicial selection a system that is
quintessentially anti-spoils. It is a perverse
application of Elrod-Branti to conclude that a
state seeking to renounce patronage regimes and
embrace a system well-calculated to deter the
evils of patronage is somehow in violation of the
Constitution.
The Petition should also be granted to address
the sovereign powers of the states over their
methods of judicial selection, powers derived from
the structure of our federal system, the Tenth
Amendment, and the Guarantee Clause. Delaware

3
is entitled to act, and has acted, as a laboratory
for democratic experiment. Its experiment has
proved a triumphant success. Delaware has long
held a commanding position in American
corporate law. That preeminent position is
strongly reinforced by the national and global
esteem in which the state’s judiciary is held. In
turn, that preeminence is tied to the qualities of
political balance and the high level of judicial
independence that the Delaware judiciary enjoys.
This Court should grant the Petition to determine
whether the Constitution of the United States
requires destruction of these cherished Delaware
traditions and institutions, or instead protects
them.
REASONS FOR GRANTING THE PETITION
I. THE PETITION SHOULD BE GRANTED
TO CLARIFY THE ELROD-BRANTI ANTIPATRONAGE DOCTRINE
A. Elrod-Branti is an “On-Off” Test, Not a
“Least Restrictive Means” Doctrine
This Court’s review is warranted to review the
Third Circuit’s construction of the First
Amendment doctrines emanating from Elrod v.
Burns, 427 U.S. 347 (1976) and Branti v. Finkel,
445 U.S. 507 (1980). The Third Circuit
superimposed upon Elrod-Branti a “least
restrictive means” analysis of the sort commonly
associated with “strict scrutiny” or “exacting
scrutiny” review. While accepting as “vital”
Delaware’s laudatory interest in ensuring
political balance in its courts, the Third Circuit
held that the State’s requirement of balance
between the two major political parties was not

4
the least restrictive means for achieving the
State’s interest. App. 32a–33a.
The Elrod-Branti standard, however, is not an
ends-means analysis, akin to the strict scrutiny
test applicable to content-based regulation of
speech. See Reed v. Town of Gilbert, 135 S. Ct.
2218, 2227 (2015). Rather, Elrod-Branti is an onoff test. If the employment position at issue is one
for which political affiliation is appropriate, then
the First Amendment absolutely permits the use
of political affiliation. (This exemption, in which
the anti-patronage rule of Elrod-Branti is turned
off, is often referred to by a misnomer, labeling it
the “policymaking” exemption.)
The Third Circuit’s misapprehension stemmed
from its erroneous reading of Justice Brennan’s
three-Justice plurality opinion in Elrod. The
Elrod plurality applied what it described as
“exacting
scrutiny,”
requiring
that
the
justification for the political patronage system
used for rank-and-file positions in Chicago and
Cook County in the heyday of the first Mayor
Richard Daley’s machine politics be justified by
“paramount” or “vital” government interests and
employ the “least restrictive” means to effectuate
those interests. Elrod, 427 U.S. at 363. In
assessing the justification for the entire patronage
system writ large, the Elrod plurality found the
system unable to pass this test. Id at 372-73. See
also Rutan v. Republican Party of Illinois, 497
U.S. 62, 69 (1990) (Explaining that Elrod “decided
that the government interests generally asserted
in support of patronage fail to justify this burden
on First Amendment rights because patronage
dismissals are not the least restrictive means for
fostering those interests.”).

5
The plurality in Elrod then fashioned its safety
valve—the on-off switch—exempting from its
patronage prohibition “policymaking positions.”
The Elrod plurality did not additionally require
the government to justify each classification of a
position as “policymaking” under the exacting
scrutiny test. Rather, it treated the distinction
between policymaking and non-policymaking as
definitional, so that the position was either “in” or
“out” of the First Amendment proscription. Elrod,
427 U.S. at 373 (plurality opinion).
Significantly,
the
short
two-paragraph
concurring opinion in Elrod, written by Justice
Stewart and joined by Justice Blackmun, did not
engage in any form of ends-means analysis,
refusing to review “the broad contours of the
patronage system.” Id. at 374 (Stewart, J.,
concurring in the judgment). Consistent with
the on-off approach, Justice Stewart simply
stated: “The single substantive question involved
in this case is whether a nonpolicymaking,
nonconfidential government employee can be
discharged or threatened with discharge from a
job that he is satisfactorily performing upon the
sole ground of his political beliefs. I agree with the
plurality that he cannot.” Id. at 375.
Branti followed suit. The 6-3 decision in Branti
treated the inquiry entirely as an on-off analysis,
focusing solely on whether the “position is one in
which political affiliation is a legitimate factor to
be considered.” Branti, 445 U.S. at 518. Branti
purposefully loosened the definitional inquiry,
making it clear that neither the word
“policymaking” nor the word “confidential” was a
talisman. “In sum, the ultimate inquiry is not
whether the label “policymaker” or “confidential”

6
fits a particular position; rather, the question is
whether the hiring authority can demonstrate
that party affiliation is an appropriate
requirement for the effective performance of the
public office involved.” Id. Thus Branti relaxed the
definitional contours
of the
Elrod-Branti
exemption. Most critically, however, Branti
retained the essential structure of the First
Amendment standard, which is not a ends-means
inquiry, but an on-off switch.
This
structural
distinction
matters.
In
mistakenly treating Elrod-Branti as a “least
restrictive means” doctrine, the Third Circuit
deemed itself empowered to imagine other ways
that Delaware might achieve its goal of muting
the influence of partisan politics on its judiciary.
This was error. The only appropriate inquiry is
definitional—whether positions on the Delaware
bench do or do not fall within the Elrod-Branti
exemption.
This is not to say that no judicial judgment is
required to analyze the definitional question. As
with any constitutional line, there will be close
calls. It is to say, however, that the nature of the
judicial inquiry is not normative but descriptive.
This Court’s review is warranted to determine if
the Third Circuit was right or wrong in placing on
Delaware the burden of proving that it has
adopted the least restrictive means of achieving
its vital interests in a politically balanced
judiciary. Rather, the proper question is whether
Delaware Judges, Chancellors, and Justices hold
positions that fall definitionally within the ElrodBranti exemption. If they do, then it is game over,
and Delaware wins.

7
B. Applying the Elrod-Branti Exemption
to Judicial Selection
Whether members of the Delaware judiciary
may be appointed with consideration of their
political affiliation is, to borrow from Chief
Justice Marshall, “a question deeply interesting to
the United States; but, happily, not of an intricacy
proportioned to its interest.” Marbury v. Madison,
5 U.S. (1 Cranch) 137, 176 (1803). The question,
in short, is easier than it looks.
There are two principal objections to
recognizing that appointments to the Delaware
judiciary
qualify
under
the
Elrod-Branti
exemption. The first, and philosophically most
intriguing,
is
that
judges
cannot
be
“policymakers” because they are not authorized to
“make policy” but rather must simply “follow the
law.” This objection resonates with the recurring
American debates, prominent in the nation’s
political and legal discourse, over accusations that
judges have in any particular instance usurped
the proper judicial role and become activists
advancing policy agendas. See Rodney Smolla, Let
Us Now Praise Famous Judges: Exploring the
Roles of Judicial “Intuition” and “Activism” in
American Law, 40 U. Rich. L. Rev. 39 (2005). The
second objection is that the Elrod-Branti
exemption should not apply to judges because the
Elrod-Branti exemption should be limited to
positions requiring loyalty or fidelity to the
appointing superior’s political agenda. Neither
objection is persuasive.

8
C. Judges Make Policy in a Manner
Distinct from the Legislative Branches,
But it is Policy Nonetheless for Purposes
of the Elrod-Branti Exemption
It is fundamentally wrong to conflate the
question of whether judges qualify under the
Elrod-Branti exemption with the question of
whether they “make public policy” in the same
sense as legislative or executive branch officials.
The Third Circuit erred in failing to recognize that
the term “policy” in the American system of
government has multiple shades of meaning. Each
in their own way, the legislative, executive, and
judicial branches all make “policy.” From the
founding of the Republic, state and federal courts
have been called upon to resolve profound
conflicts which began as political questions but
eventually distilled into judicial ones. As Alexis de
Tocqueville observed in 1835, “‘scarcely any
political question arises in the United States that
is not resolved, sooner or later, into a judicial
question.’” Alexis de Tocqueville, 1 Democracy in
America 280 (1945 ed.), quoted in Sierra Club v.
Morton, 405 U.S. 727, 740, n. 16 (1972).
This Court has already largely debunked the
notion that state judges do not make policy. In
Gregory v. Ashcroft, 501 U.S. 452 (1991), the Court
held that the Age Discrimination in Employment
Act of 1967, 81 Stat. 602, as amended, 29 U.S.C.
§§ 621–634, did not bar Missouri’s mandatory
retirement age for state judges. The Court in
Gregory was faced with the assertion that “judges
merely resolve factual disputes and decide
questions of law; they do not make policy.”
Gregory, 501 U.S. at 465. Adopting a “clear
statement” requirement, the Court ultimately did

9
not need to decide whether or not state judges fell
within the ADEA exemption. Yet the Court wisely
observed that the exception for “policymaking”
was not necessarily tethered to whether judges
make “policy” in the legislative or executive sense:
The
Governor
stresses
judges’
policymaking responsibilities, but it is far
from plain that the statutory exception
requires that judges actually make policy.
The statute refers to appointees “on the
policymaking level,” not to appointees
“who make policy.” It may be sufficient
that the appointee is in a position
requiring the exercise of discretion
concerning issues of public importance.
This certainly describes the bench,
regardless of whether judges might be
considered policymakers in the same
sense as the executive or legislature.
Id. at 466-67.
As this prescient passage from Gregory signals,
the resistance to the notion that judges are
“policymakers” is misplaced. To be sure, state and
federal judges are not policymakers in a brazen,
partisan, political sense. But this does not mean,
for purposes of the Elrod-Branti exemption, that
judges are outside the realm for which political
affiliation is an appropriate consideration. See
Hagan v. Quinn, 867 F.3d 816, 828 (7th Cir. 2017)
(“[J]udges and hearing officers typically occupy
policymaking
roles
for
First
Amendment
purposes.”)

10
To say that theirs is “not to reason why” is not
to say that theirs is not to reason. 2 As the Seventh
Circuit has explained, “[t]he test for whether a
position involves policymaking is ‘whether the
position authorizes, either directly or indirectly,
meaningful input into government decision
making on issues where there is room for
principled disagreement on goals or their
implementation.’” Kiddy-Brown v. Blagojevich,
408 F.3d 346, 355 (7th Cir. 2005), quoting Nekolny
v. Painter, 653 F.2d 1164, 1170 (7th Cir. 1981),
cert. denied, 455 U.S. 1021 (1982).
Amici commend to this Court the opinion by
Judge Frank Easterbrook for the Seventh Circuit
in Kurowski v. Krajewski, 848 F.2d 767 (7th Cir.
1988):
A judge both makes and implements
governmental policy…In most states
judges are elected, implying that the
office has a political component. Holders
of the appointing authority may seek to
ensure that judges agree with them on
important jurisprudential questions. The
Governor of Indiana was entitled to
consider Krajewski’s views about the role
of judges—or even simply Krajewski’s
political affiliation—when making the
appointment, just as the voters may
consider these factors without violating
the first amendment when deciding
whether to retain Judge Krajewski in
office. (We put aside all debate about
2

See Alfred Lord Tennyson, The Charge of the Light
Brigade (“Theirs not to reason why; Theirs but to do or
die.”) (1854).

11
whether recourse to politics in selecting
judges is good or bad; we are concerned
only with the constraints the first
amendment imposes on the way the State
of Indiana prefers to organize its
government.)
Id. at 770. Similar views were articulated by
Judge Damon Keith, in an opinion for the Sixth
Circuit, stating that “[w]e agree with the holding
in Kurowski that judges are policymakers because
their political beliefs influence and dictate their
decisions on important jurisprudential matters.”
Newman v. Voinovich, 986 F.2d 159, 163 (6th Cir.
1993). The Sixth Circuit held that with respect to
appointments to the state judiciary, “judges are
policymakers within the meaning of Elrod and
Branti.” Id.
Many scholars have recognized the particularly
critical policymaking role the Delaware judiciary
plays in the superintendence of Delaware
corporate law. “Delaware relies heavily on judgemade law, but the structure and operation of the
Delaware courts causes Delaware’s judicial
lawmaking to differ from that in other states.
Indeed, the process by which Delaware courts
make corporate law resembles legislation in some
ways.” Jill E. Fisch, The Peculiar Role of the
Delaware Courts in the Competition for Corporate
Charters, 68 U. Cin. L. Rev. 1061, 1064 (2000).
“The best-known of the principal policymakers in
Delaware are the members of the judiciary.”
Lawrence Hamermesh, How We Make Law in
Delaware, and What to Expect from Us in the
Future, 2 J. Bus. & Tech. L. 409 (2007). Delaware
adopts “a preference that the details of corporate
law be shaped in a common law fashion, with

12
courts as first responders to tensions within the
corporate law, at least in areas that are not
susceptible to simple statutory clarification.”
Lawrence Hamermesh, The Policy Foundations of
Corporate Law, 106 Colum. L. Rev. 1749, 1787
(2006). Many of the defining corporate law
doctrines
that
now
dominate
corporate
governance principles across the United States
and indeed the world are the product of Delaware
judicial policymaking. “The scope of the business
judgment rule, the analysis of transactions that
implicate the duty of loyalty, the legal standards
governing management’s response to a hostile
tender offer, all are based on legal principles
articulated by the Delaware courts.” Fisch, supra,
at 1074.
“Although judges may sincerely believe that
their decisions are governed by the law, their
political views subtly color their legal decisions —
either knowingly or via cognitive biases,
motivated reasoning, or some other mechanism-according to political scientists.” Brian Z.
Tamanaha, The Several Meanings of “Politics” in
Judicial Politics Studies: Why “Ideological
Influence” Is Not “Partisanship”, 61 Emory L.J.
759, 762 (2012) citing Jeffrey A. Segal et al., The
Supreme Court in the American Legal System 3335 (2005).
There is nothing unseemly in acknowledging
that members of the judiciary, once they assume
office, are charged with exercising independent
judgment, while at the same time accepting the
realist truth that as candidates for judicial office
prospective candidates inevitably have views
formed on legal issues. “It is virtually impossible
to find a judge who does not have preconceptions

13
about the law.” Republican Party of Minnesota v.
White, 536 U.S. 765, 777-78 (2002). In the words
of then-Justice Rehnquist, “Since most Justices
come to this bench no earlier than their middle
years, it would be unusual if they had not by that
time formulated at least some tentative notions
that would influence them in their interpretation
of the sweeping clauses of the Constitution and
their interaction with one another. It would be not
merely unusual, but extraordinary, if they had not
at least given opinions as to constitutional issues
in their previous legal careers.” Laird v. Tatum,
409 U.S. 824, 835 (1972) (memorandum opinion).
Reflecting on the nature of judging, Justice
Benjamin Cardozo, a giant of American law who
exerted great influence on the evolution of the
common law as a jurist for the state of New York,
and then on constitutional law as a Justice of this
Supreme Court, observed:
There has been a certain lack of candor in
much of the discussion ... or perhaps in
the refusal to discuss it, as if judges must
lose respect and confidence by the
reminder that they are subject to human
limitations. I do not doubt the grandeur of
the conception which lifts them into the
realm of pure reason, above and beyond
the sweep of perturbing and deflecting
forces. Nonetheless, if there is anything of
reality in my analysis of the judicial
process, they do not stand aloof on these
chill and distant heights; and we shall not
help the cause of truth by acting and
speaking as if they do. The great tides and
currents which engulf the rest of man do

14
not turn aside in their course and pass
judges by.
Benjamin N. Cardozo, The Nature of the Judicial
Process, 167–68 (1921).
D. No Fidelity to Superiors is Required
Under the Elrod-Branti Exemption
The Third Circuit’s insistence that the ElrodBranti exemption is limited to jobs that require
loyalty or fidelity to the superior who made the
appointment was flawed, and conflicts with
decisions of other federal and state courts. The
question is not whether, once in office, judges are
beholden to the political authority that appointed
them. The question is whether, in considering
their suitability for office, political affiliation is a
constitutionally permissible consideration.
The Third Circuit’s rule actually works as an
assault on judicial independence. “Judges are not
politicians, even when they come to the bench by
way of the ballot.” Williams-Yulee v. Florida Bar,
135 S. Ct. 1656, 1662 (2015). The Third Circuit
adopted a non sequitur, by presuming that
because judges, once assuming office, have
obligations of impartiality and independence, they
cannot be selected in a manner sensitive to party
affiliation. Nothing in Elrod or Branti requires
this result:
The ... approach is unsatisfactory because
it assumes that Branti and its progenitor,
Elrod ... permit an appointing officer to
consider the appointee’s political views
only when the appointee carries out the
appointing official’s own “policy”. If this is
so then, for example, the governor could

15
not consider a would-be judge’s politics
when deciding whom to appoint (because
the judge is independent of the governor
once in office), and the President could not
consider the views of a prospective
appointee
to
the
Federal
Trade
Commission when making that selection.
Neither Elrod nor Branti makes anything
turn on the relation between the job in
question and the implementation of the
appointing officer’s policies.
Kurowski, 848 F.2d at 770.
“A State may assure its people that judges will
apply the law without fear or favor.” WilliamsYulee, 135 S. Ct. at 1662. Once judges and justices
assume office, they are no longer properly
identified as minions of the authority responsible
for their appointment. As the Chief Justice has
observed: “We do not have Obama judges or
Trump judges, Bush judges or Clinton judges.
What we have is an extraordinary group of
dedicated judges doing their level best to do equal
right to those appearing before them. That
independent judiciary is something we should all
be thankful for.” 3 There is, in short, a “twist” to
the Elrod-Branti analysis unique to the judicial

3

Robert Barnes, Rebuking Trump’s criticism of
‘Obama judge,’ Chief Justice Roberts defends judiciary as
‘independent’, The Washington Post, November 21, 2018,
available at: https://www.washingtonpost.com/politics/
rebuking-trumps-criticism-of-obama-judge-chief-justice-ro
berts-defends-judiciary-as-independent/2018/11/21/6383c7
b2-edb7-11e8-96d4-0d23f2aaad09_story.html?noredirect=
on

16
role. As Sixth Circuit Judge Nathaniel Jones,
concurring in Newman, elegantly explained:
Judicial
appointments
present
an
interesting twist on that analysis. For
example, while a judge may be a
“policymaker” in a broad sense, a judge is
not a “policymaker” for the appointing
governor. Rather, the judiciary is an
independent arm of the government,
unconnected by oath or duty to the
governor’s office or political party. Once
appointed, a judge does not and should not
answer to a governor’s directives or
opinions. Therefore, the link between an
appointee judge and the appointing
governor is fundamentally different from
the link between a governor and other
gubernatorial
appointees
who
are
appointed to fulfill the political or policy
objectives of a governor.
Newman, 986 F.2d at 164 (Jones, J., concurring).
E. Once the Propriety of the Exemption is
Recognized, “Discrimination” Against
an Excluded Party Cannot Violate the
First Amendment
The Delaware system necessarily bars the
Delaware Governor from considering members of
political parties that do not make it into the top
two “major” political parties at any given moment.
The identities of the current two “major” parties
in Delaware, Democratic and Republican, are not
perpetual. The pertinent provisions of the
Delaware Constitution identify no party by name.
To achieve its goal of balance, Delaware simply
limits judicial selection to the top two “major”

17
parties, whatever they may be at any point in
time. There is nothing to preclude the Delaware
electorate from lifting up a new party as one of the
top two “major” parties in its politics, the “Tea
Party” or “Green Party,” or any other, in which
case that party would assume a place as one of the
two major parties.
The Delaware system thus by definition
“excludes” parties that do not make the top-two
cut. But this truism does not violate the First
Amendment if judges qualify under the ElrodBranti exemption. For by definition all positions
qualifying under the Elrod-Branti exemption
exclude members of all parties other than the
party favored by the appointing authority.
To punctuate this point, consider the federal
model. Presidents of the United States have
throughout history used party affiliation and
ideology as litmus tests for nominations to the
federal judiciary, from the Supreme Court on
down. See Dawn E. Johnsen, Should Ideology
Matter in Selecting Federal Judges?: Ground
Rules for the Debate, 26 Cardozo L. Rev. 463, 472
(2005). Only the most naïve would believe that
politics and ideology do not play a central role in
nominations to the federal bench:
Presidents, senators, and interest groups
alike realize that the judges themselves
are political. Candidates for the federal
bench receive their nominations precisely
because through their political work or
interests they came to the attention of
some politician, most likely a U.S. senator
or a member of the president’s staff.

18
Lee Epstein & Jeffrey A. Segal, Advice and
Consent: The Politics of Judicial Appointments 3
(2005).
This long historical practice surely does not
violate the First Amendment. Yet it is, by its
nature, inherently exclusionary. In a literal sense
the federal model “discriminates” on the basis of
political affiliation and ideological viewpoint. A
conservative Republican President who makes it
clear he or she is interested in filling judicial
vacancies only with Republicans simpatico to the
President’s
conservative
views
necessarily
excludes
all
non-Republicans.
A
liberal
Democratic President who makes it clear he or she
is interested in filling judicial vacancies only with
Democrats simpatico to the President’s liberal
views necessarily excludes all non-Democrats.
Senators, exercising their concomitant powers of
consent, may also be unabashedly political in the
exercise of their constitutional prerogatives. See
Michel Stokes Paulsen, The Constitutional
Propriety of Ideological “Litmus Tests” for
Judicial Appointments, University of Chi. Law
Rev. Online 28 (2017) 4 (“Isn’t it obvious? The
Constitution prescribes an explicitly political
process for the nomination, confirmation, and
appointment of US Supreme Court justices and
lower federal court judges. The president has the
exclusive power of nomination and may exercise
that power on the basis of any criteria he or she
sees fit. The Senate has the power to provide its
‘advice’ and—if it wishes—its ‘consent’ to such a
nomination.”).
4

https://pdfs.semanticscholar.org/8404/64 30182d94a
21180ff620f23c2fc285f58c3.pdf

19
The Third Circuit’s decision, distilled to its core,
rests entirely on the perceived constitutional
infirmity of a Delaware system that excludes, as
it must, members of any party other than the
party taking its turn in the rotation. If the ElrodBranti exemption applies, however, this objection
is entirely illogical. For by definition, in any
system in which reference to political affiliation is
deemed permissible for a pending appointment,
any political party other than the chosen one will
be excluded.
F. Delaware Has Decided that the Spoils
Do Not Belong to the Victor
The Third Circuit’s decision turns the entire
ethos of Elrod-Branti on its head. Elrod and
Branti worked to break the headlock of the spoils
system on rank-and-file government employment.
The “Delaware Way” is animated by virtues
entirely aligned with Elrod and Branti. Delaware
has sought to counteract the spoils system when
it comes to judicial selection, adopting a system
that is quintessentially anti-spoils. It is a
perverse application of Elrod-Branti to conclude
that a state seeking to renounce patronage
regimes and embrace a system well-calculated to
deter the evils of patronage is somehow in
violation of the Constitution. Elrod-Branti
decided that to the victor do not belong all the
spoils. Delaware has decided the same thing. It
should not be penalized for it.

20
II. THE PETITION SHOULD BE GRANTED TO
ADDRESS THE SOVEREIGN POWERS OF
STATES OVER STATE JUDICIAL SELECTION
A. Judicial Selection Regimes Reside at
the Core of State Sovereignty
“As every schoolchild learns, our Constitution
establishes a system of dual sovereignty between
the States and the Federal Government.” Gregory,
501 U.S. at 457. “The Constitution, in all its
provisions, looks to an indestructible Union,
composed of indestructible States.” Texas v.
White, 7 Wall. 700, 725, 19 L.Ed. 227 (1869),
quoting Lane County v. Oregon, 7 Wall. 71, 76, 19
L.Ed. 101 (1869).
The system of dual sovereignty divides power,
and in that division preserves liberty as ancient
as democracy itself. “The liberty of the ancients is
the liberty of citizens to govern themselves
through their own political institutions.” Charles
Fried, Federalism-Why Should We Care?, 6 Harv.
J.L. & Pub. Policy 1, 2 (1982). “This federalist
structure of joint sovereigns preserves to the
people numerous advantages. It assures a
decentralized government that will be more
sensitive to the diverse needs of a heterogenous
society; it increases opportunity for citizen
involvement in democratic processes; it allows for
more
innovation
and
experimentation
in
government; and it makes government more
responsive by putting the States in competition
for a mobile citizenry.” Gregory, 501 U.S. at 458,
citing Michael McConnell, Federalism: Evaluating
the Founders’ Design, 54 U. Chi. L. Rev. 1484,
1491-1511 (1987); Deborah Jones Merritt, The
Guarantee
Clause
and
State
Autonomy:

21
Federalism for a Third Century, 88 Colum. L. Rev.
1, 3–10 (1988).
Delaware has a powerful interest as a sovereign
“in establishing its own form of government.”
Sugarman v. Dougall, 413 U.S. 634, 642 (1973).
“In its internal administration the State (so far as
concerns the Federal Government) has entire
freedom of choice as to the creation of an office for
purely state purposes, and of the terms upon
which it shall be held by the person filling the
office.” Wilson v. North Carolina, 169 U.S. 586,
594 (1898). “How power shall be distributed by a
state among its governmental organs is
commonly, if not always, a question for the state
itself.” Highland Farms Dairy v. Agnew, 300 U.S.
608, 612 (1937).
Balancing judicial selection by alternating
between the two major political parties cannot
offend the First Amendment, as already
demonstrated, if members of the judiciary fall
outside the Elrod-Branti doctrine. The propriety
of applying the Elrod-Branti exemption is
reinforced by Delaware’s Tenth Amendment and
Guarantee Clause rights as a sovereign.
Delaware’s sovereign right under the Tenth
Amendment to experiment in advancing the art of
governance is reinforced by the Constitution’s
Guarantee Clause, Article IV, § 4. The Guarantee
Clause declares that the “United States shall
guarantee to every State in this Union a
Republican Form of Government.” The Guarantee
Clause is a two-way street. It plainly operates as
a restraint upon the states. Yet it also operates as
an empowerment to the states, a recognition of the
states’ sovereign autonomy and dignity. “[T]he

22
words of the guarantee clause suggest a limit on
the power of the federal government to infringe
state autonomy.” Merritt, supra, at 3. At stake is
Delaware’s defining identity, cutting to the core of
its integrity and dignity as a sovereign. See
Gregory, 501 U.S. at 460 (“The present case
concerns a state constitutional provision through
which the people of Missouri establish a
qualification for those who sit as their judges.
This provision goes beyond an area traditionally
regulated by the States; it is a decision of the most
fundamental sort for a sovereign entity. Through
the structure of its government, and the character
of those who exercise government authority, a
State defines itself as a sovereign.”)
B. Delaware is Entitled to Act as a
Laboratory for Democratic Experiment
Justice Brandeis famously expounded the
virtues of allowing states to serve as laboratories
of experiment, equipped to “try novel social and
economic experiments without risk to the rest of
the country.” New State Ice Co. v. Liebmann, 285
U.S. 262, 311 (1932) (Brandeis, J., dissenting).
Delaware has engaged in such an experiment,
deliberately fashioning a judiciary that is
politically balanced. It has worked. The Delaware
judiciary has garnered widespread respect in
national and global legal and economic markets.
Federal courts should tread with extreme caution
before presuming to encroach on Delaware’s right
to proceed with its experiment.
In the pursuit of its experiment, Delaware has
sought to de-politicize its judiciary by rotating
appointments among the top two parties. This
structure enhances stability and discourages

23
attempts to game the system. There is nothing
constitutionally
untoward
in
Delaware’s
preference for the stability of a balanced twoparty rotation system over a regime of
unrestrained factionalism. The pursuit of such
stability was an animating value of the founders
of the Republic, and states are free to embrace it
as well. Storer v. Brown, 415 U.S. 724, 736, (1974)
(“A State need not take the course California has,
but California apparently believes with the
Founding Fathers that splintered parties and
unrestrained factionalism may do significant
damage to the fabric of government.”) citing The
Federalist, No. 10 (Madison). See also Rutan, 497
U.S. at 197 (Scalia, J., dissenting) (Observing,
“Not only is a two-party system more likely to
emerge, but the differences between those parties
are more likely to be moderated,” and adding,
“The stabilizing effects of such a system are
obvious.”)
C. The Delaware Experiment Has Been a
Triumphant Success
Delaware’s experiment has been a triumphant
success. Most visibly, Delaware has long held a
leading position in American corporate law.
Lawrence A. Hamermesh, The Challenge to
Delaware’s Preeminence in Corporate Law Federal
Interference May Not Pose the Greatest Danger to
the State's Future Success, Del. Law., Fall 2009,
at 8 (“We need not dwell long on our State’s wellknown success in providing a legal home for
corporations and other business entities. More
than 850,000 entities, including over half of all
U.S. publicly traded companies and over 60
percent of the Fortune 500 companies, are
organized under Delaware law.”). See also U.S.

24
Chamber Institute for Legal Reform 2019 Lawsuit
Climate Survey: Ranking the States, September
18, 2019 (Ranking Delaware judiciary #1 in U.S.
in “Trial Judges Impartiality,” “Trial Judges
Competence,”
and
“Quality
of
Appellate
5
Review.”).
Delaware’s commanding position as the premier
American forum for the adjudication of corporate
law disputes is inextricably tied to the widespread
acknowledgement of the high competence of its
judiciary. See Ehud Kamar, A Regulatory
Competition Theory of Indeterminacy in Corporate
Law, 98 Colum. L. Rev. 1908, 1911 (1998)
(“Delaware courts have earned a unique reputation for quality adjudication. This reputation is
particularly meaningful since the quality of courts
can be ascertained only through the use of their
services.”); Bernard S. Black, Is Corporate Law
Trivial?: A Political and Economic Analysis, 84
Nw. U. L. Rev. 542, 589 (1990) (“My explanation
depends primarily on Delaware’s expert judges.”);
Fisch, supra, at 1094 (“Consider next the
proficiency of Delaware courts, which commentators widely acknowledge to be a competitive
advantage.”); E. Norman Veasey, Professionalism
and Pragmatism—The Future: A Message from the
Chief Justice of Delaware, Del. Law., Winter 1993,
at 13 (Delaware’s Chief Justice emphasizing the
connections
between
Delaware’s
national

5

https://www.instituteforlegalreform.com/pages/201
9-executive-summary?utm_source=website&utm_medium
=carousel&utm_campaign=ilr_main_site&utm_term=https
://www.instituteforlegalreform.com/pages/2019 -executivesummary

25
prominence and its consistent capacity to attract
quality judges).
In turn, that preeminence is tied to the qualities
of political balance and the high level of judicial
independence that the Delaware judiciary enjoys.
Fisch, supra, at 1094 (“Finally, the Delaware
Constitution mandates balance between the two
major political parties in appointment of
Delaware judges. These factors contribute to
insulating Delaware judges relative to legislators
from political influence.”); Hamermesh, How We
Make Law in Delaware, supra, at 409 (“These
Delaware judges are particularly interesting
because of their appointive, nonpolitical,
nonpartisan character.”); Marcel Kahan and
Edward Rock, Symbolic Federalism and the
Structure of Corporate Law, 58 Vand. L. Rev.
1573, 1612 (2005) (“Indeed, since Delaware’s
judiciary is less politicized and has greater claim
to expertise in corporate law than the federal
judiciary, its rulings enjoy greater legitimacy
than would corporate rulings of federal judges”).

26
CONCLUSION
In arguing The Dartmouth College case,
Trustees of Dartmouth College v. Woodward, 17
U.S. 518, 688 (1819), Daniel Webster declaimed,
“It is sir, as I have said, a small college. And yet
there are those who love it!” 6 Delaware is but a
small state. And yet there are those who love it,
for its traditions of bipartisan civility, and its
governing institutions, including a highly
qualified and independent judiciary deliberately
fashioned to diminish partisan influence. This
Court should grant the Petition to determine
whether the Constitution of the United States
requires destruction of those Delaware traditions
and institutions, or instead protects them.
Dated: October 3, 2019
Respectfully submitted,
Rodney A. Smolla
4601 Concord Pike
Wilmington, DE 19803
(302) 477-2278
Counsel of Record for Amici Curiae

6

https://www.americanheritage.com/it-small-collegeyet-there-are-those-who-love-it

27
APPENDIX 7
William C. Banks, College of Law Board of
Advisors Distinguished Professor, Professor of
Law and Professor of Public Administration and
International Affairs Emeritus
Ashutosh Bhagwat, Martin Luther King, Jr.
Professor of Law and Boochever and Bird
Endowed Chair for the Study and Teaching of
Freedom and Equality, University of California,
Davis School of Law
Clay Calvert, Professor and Brechner Eminent
Scholar in Mass Communication at the University
of Florida, where he also directs the Marion B.
Brechner First Amendment Project
Jill E. Fisch, Saul A. Fox Distinguished
Professor of Business Law, University of
Pennsylvania Law School
Bruce Grohsgal, Helen S. Balick Professor in
Business Bankruptcy Law, Widener University
Delaware Law School
Lawrence Hamermesh, Emeritus Professor of
Law, Widener University Delaware Law School,
and Executive Director, Institute for Law and
Economics, University of Pennsylvania Law
School
David R. Hodas, Distinguished Emeritus
Professor of Law, Widener University Delaware
Law School

7

The amici file in their individual capacities, not as
representatives of the institutions with which they are
affiliated.

28
Justice William C. Koch, Jr. (Ret.), President
and Dean of the Nashville School of Law
Michael S. McGinniss, Dean and Associate
Professor of Law, University of North Dakota
School of Law
Helen
Norton,
Rothgerber
Chair
in
Constitutional Law, University of Colorado School
of Law
Paul L. Regan, Associate Professor of Law,
Widener University Delaware Law School
Rodney A. Smolla, Dean and Professor of Law,
Widener University Delaware Law School
Nat Stern, John W. & Ashley E. Frost Professor,
Florida State University College of Law
Mark Strasser, Trustees Professor of Law,
Capital University Law School
Alexander Tsesis, Raymond & Mary Simon
Chair in Constitutional Law and Professor of Law,
Loyola University School of Law, Chicago,
General Editor, Cambridge Studies on Civil
Rights and Civil Liberties
Sonja R. West, Brumby Distinguished Professor
of First Amendment Law, University of Georgia
School of Law
Timothy Zick, John Marshall Professor of
Government & Citizenship, William & Mary Law
School

